                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C.

                                                                                           OFFICE OF
                                                                                      INSPECTOR GENERAL



February 21, 2003

Memorandum

Subject:         Auditor’s Report for the Washington Drinking Water State Revolving Fund
                 as of June 30, 2001
                 Audit Report No.2003-1-00068

From:            William M. Dayton
                 National SRF Audit Manager

To:              John Iani
                 Regional Administrator
                 EPA, Region 10
                 Seattle, WA

Attached is a copy of the subject audit we sent to the State of Washington. The audit contains reports on the
financial statements, internal controls, and compliance requirements applicable to the Drinking Water State
Revolving Fund (SRF) program in Washington for the year ended June 30, 2001.

We issued an unqualified opinion on the financial statements and on the compliance requirements
applicable to the Drinking Water SRF program. In addition, we did not note any matters involving the
internal control system and operations that we consider to be material weaknesses.

Since we did not have any compliance matters or costs questioned, and we are closing the audit report on
issuance.

The OIG has no objection to the release of this report to any member of the public upon request. The report
contains no confidential business or proprietary information.

If you have any questions or concerns regarding this matter, please feel free to contact me at (916) 498-6590
or Mr. Paul Felz at (303) 312-6270.

Attachment
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                                 WASHINGTON, D.C.
                                                                                                 OFFICE OF
                                                                                                 INSPECTOR GENERAL




February 21, 2003

Ms. Peggy Johnson, Deputy Director
Headquarters Operation
Division of Drinking Water
Washington Department of Health


Re:   Final Report of Audit of Financial Statements of Washington Drinking Water State Revolving Fund for the
      year ended June 30, 2001

Dear Ms. Johnson:

Attached please find an electronic copy of the Washington Drinking Water State Revolving Fund audited financial
statements of the year ended June 30, 2001.

In order to present the financial statements in accordance with generally accepted accounting principles, we made
certain proposed adjustments to the state’s financial statements, which your staff has agreed with.

We would like to take this opportunity to thank you and your staff for the cooperation and courtesies we received
during our audit. Please call me at (916) 498-6590 or Mr. Paul Felz at (303) 312-6270 should you have any
comments or questions.

Sincerely,




William M. Dayton
SRF Audit Manager
       OIG
       OFFICE OF INSPECTOR GENERAL


                                          Catalyst for Improving the Environment


Audit Report


       Washington Drinking Water
       State Revolving Fund

       Financial Statements with
       Independent Auditor’s Report, June 30, 2001


       Audit Report Number 2003-1-00068

       Issued February 21, 2003
Inspector General Division
Conducting the Audit:             Western Audit Division
                                   San Francisco, California

Region Covered:                   Region 10

Program Office Involved:          Drinking Water Unit

State Offices:                    Department of Health
                                  Public Works Board
                                  Department of Community Trade &
                                   Economic Development

Auditors Conducting Audit:        Paul Felz
                                  Darren Schorer




                             ii
                                             Washington Drinking Water State Revolving Fund
                                                           Table of Contents



Independent Auditor’s Report........................................................................................................................1

Balance Sheet ...............................................................................................................................................2

Statement of Revenues, Expenses and Changes in Fund Balance .............................................................3

Notes to the Financial Statements.................................................................................................................4

Independent Auditor’s Report on the Internal Control Structure Based on an Audit of
the Financial Statements Performed in Accordance with Government Auditing Standards .........................8

Independent Auditor’s Report on Compliance with the Requirements Applicable to the
Environmental Protection Agency’s State Revolving Fund Program in Accordance with
Government Auditing Standards ................................................................................................................10

Supplemental Information............................................................................................................................12




                                                                                    iii
                         UNITED     STATES     ENVIRONMENTAL PROTECTION                AGENCY
                                                 WASHINGTON, D.C.

                                                                                                       OFFICE OF
                                                                                                   INSPECTOR GENERAL




                                             Independent Auditor’s Report

To:     Ms. Peggy Johnson, Deputy Director
        Headquarters Operation
        Division of Drinking Water
        Washington Department of Health

We have examined the accompanying balance sheet of the Washington Drinking Water State Revolving Fund
Program (the Program) as of June 30, 2001, and the related statement of revenues, expenses and fund balance
for the year then ended. These financial statements are the responsibility of the Program’s management. Our
responsibility is to express an opinion on these financial statements based on our audit.

We conducted our audit in accordance with generally accepted auditing standards and Government Auditing
Standards issued by the Comptroller General of the United States. Those standards require that we plan and
perform the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and disclosures in
the financial statements. An audit also includes assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall financial statement presentation. We believe that our
audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to in the first paragraph present fairly, in all material respects, the
financial position of the Program as of June 30, 2001, and the results of its activities for the year then ended in
conformity with generally accepted accounting principles.

Our audit was conducted for the purpose of forming an opinion on the combined financial statements taken as a
whole. The supplemental information is presented for purposes of additional analysis of the combined financial
statements. The supplemental information has been subjected to the auditing procedures applied in the audit of
the combined financial statements and, in our opinion, is fairly stated in all material respects in relation to the
combined financial statements taken as a whole.

As discussed in Note 1, the financial statements referred to above are intended to present the financial position
and results of operations of the Program, a component of the General Fund of the State of Washington. These
statements are not intended to present the financial position or results of operations for the State of Washington or
the Washington Department of Health, of which the Program is a part.

In accordance with Government Auditing Standards, we have also issued a report dated July 15, 2002, on our
consideration of the Program’s internal control structure and a report dated July 15, 2002, the Program’s
compliance with laws and regulations.




Office of Inspector General
Washington, D.C.
July 15, 2002
                            Washington Drinking Water State Revolving Fund
                                                  Balance Sheet
                                         For The Year Ended June 30, 2001


Assets                                                   DWSRF Fund          Loan Fee Acct     TOTAL
Current Assets:

Cash and cash equivalents                                 $13,896,708              $728,640   $14,625,348
Loans receivable                                              298,488                             298,488
Loan interest receivable                                      563,072                             563,072
Investment interest receivable                                 53,831                25,729        79,560
Due from other funds                                          245,713                45,000       290,713
EPA grant receivable                                        6,629,887                           6,629,887
Other receivables                                              24,351                              24,351

Total Current Assets                                       21,712,050               799,369    22,511,419

Long-Term Assets:

Long-term loan receivable                                  24,433,228                          24,433,228

Total Long–term Assets                                     24,433,228                          24,433,228

Total Assets                                              $46,145,278              $799,369   $46,944,647




Liabilities And Fund Balance
Current Liabilities:
Due to Other Agencies                                      $6,245,454                          $6,245,454
Vouchers Payable                                              302,078                             302,078
Other Current Liabilities                                      14,561                              14,561

Total Current Liabilities                                   6,562,093                           6,562,093


Fund Balance
Reserved for Receivables                                   25,319,139                          25,319,139
Reserved for Restricted Accounts                           14,264,046              $799,369    15,063,416

Total Fund Balance                                         39,583,185               799,369    40,382,554

Total Liabilities and Fund Balance                        $46,145,278              $799,369   $46,944,647




                             See accompanying notes to the financial statements.

                                                     2
                    Washington Drinking Water State Revolving Fund
                  Statement Of Revenues, Expenses, and Changes in Fund Balance
                                For The Year Ended June 30, 2001



Revenues                                      DWSRF Fund            Loan Fee Acct        Total

Federal Grants in Aid                             $15,093,369                         $15,093,369
Charges for Services                                                        471,821       471,821
Interest Income                                       1,422,483              36,197     1,458,680

Total Revenue                                      16,515,852               508,018    17,023,870

Total Expenses                                     15,093,368                          15,093,368

Excess of Revenues over Expenses                      1,422,484             508,018     1,930,502


Fund Balance Prior Year                            38,160,701               291,351    38,452,052

Ending Fund Balance                               $39,583,185              $799,369   $40,382,554




                          See accompanying notes to the financial statements.

                                                  3
                 WASHINGTON DRINKING WATER STATE REVOLVING FUND
                          Notes to the Financial Statements
                                    June 30, 2001

1.   Organization of the Fund

     The Washington Drinking Water State Revolving Fund (DWSRF) was established in 1997
     pursuant to the Washington State Safe Drinking Water Act (RCW70.119A) and the Federal Safe
     Drinking Water Act (SDWA). The DWSRF was established to provide assistance to public water
     systems for projects that meet the eligibility requirements of the SDWA. The SDWA also allows
     the State to “set aside” up to 31% of the annual capitalization grants for administration of the
     DWSRF (up to 4%), supplemental funding for the State’s Public Water System Supervision
     program (up to 10%), for technical assistance to public water systems (up to 2%), and for other
     technical or financial assistance to public water systems (up to 15%).

     The Department of Health’s Drinking Water Division (DOH) and the Public Works Board (Board)
     along with its administrative agent, the Department of Community, Trade and Economic
     Development (CTED), jointly manage the DWSRF. DOH determines the level of set-aside
     funding needed to meet its obligations, reviews loan applications for eligibility and prioritizes
     eligible projects. The Board reviews each loan applicant to determine its ability to repay the loan,
     its readiness to proceed with the project, its ability to complete the project, and the environmental
     impacts of the project. A list of prioritized loan applications is forwarded to the Public Works
     Board for approval. Funding is offered to the highest-ranking projects that are ready to proceed,
     until all funds are used.

     Beginning in 1997, the DWSRF received annual capitalization grants from the U.S. Environmental
     Protection Agency (EPA). States are required to provide an additional 20 percent of the Federal
     capitalization grant as matching funds in order to receive a grant. As of June 30, 2001, EPA
     awarded $97,800,454 in capitalization grants to the State of Washington, and Washington is
     required to provide $19,560,091 to the DWSRF as its matching share. Washington’s match is
     transferred to the DWSRF from the State’s Public Works Assistance Account.

     DOH and CTED have numerous staff dedicated solely or in part to work on DWSRF activities.
     The portion of salaries and benefits of employees for time spent working on Fund activities, as
     well as indirect costs based on direct costs, are charged to the Fund. Employees charging time
     to the Fund are covered by the State of Washington personnel benefits plan.

     The DWSRF balances and activities are included in Washington’s Comprehensive Annual
     Financial Report (CAFR) as part of the general fund, which uses the modified accrual basis of
     accounting. Because the Fund is included in the State’s general fund, the assets, liabilities, and
     equity of the Fund as reported here may not be identifiable in Washington’s CAFR.

2.   Summary of Significant Accounting Policies

     Basis of Accounting

     The DWSRF’s financial statements are presented as a general fund using the modified accrual
     method of accounting. Revenues are recognized when both measurable and available.
     Expenditures are recorded when the related liability is incurred. Washington follows the
     accounting pronouncements of the Governmental Accounting Standards Board (GASB).

     Cash and Cash Equivalents

     All monies of the Fund are deposited with the Washington State Treasurer’s Office and are
     considered cash or cash equivalents. According to Washington law, the State Treasurer is
     responsible for managing cash balances and investing excess cash of the Fund, as further
     discussed in Note 3. Therefore, management of the DWSRF does not have control over the
     investment of excess cash, and the statement of cash flows considers all funds deposited with
     the Treasurer to be cash or cash equivalents, regardless of actual maturities of the underlying
     investments. Deposits with the Washington State Treasurer are accounted for on the balance
     sheet as cash or cash equivalents.
                                                4
                 WASHINGTON DRINKING WATER STATE REVOLVING FUND
                          Notes to the Financial Statements
                                    June 30, 2001


     Loans Receivable

     Washington operates the DWSRF as a direct loan program, whereby the majority of loans made
     to water systems are funded by the Federal capitalization grant and/or match from State funds.
     Additional loans can be made from revolving funds that have been repaid to the Fund and fund
     earnings. The DWSRF loans are evidenced by a formal loan agreement between the Board and
     the borrower, executed by CTED and a promissory note executed with CTED. Loan funds are
     disbursed to borrowers after they expend funds for the purposes of the loan and request
     reimbursement from the Fund.

     Interest rates range from zero to 5.0 percent and are calculated from the date that funds are
     advanced, and interest is accrued during the construction period. After the final loan
     disbursement has been made, the loan and agreement amounts are adjusted for the actual
     amounts disbursed. No provision for uncollectible accounts has been made as all loans are
     current, and management believes that all loans will be repaid according to the loan terms.

     Administration Fees

     The DWSRF charges an administration fee on all loans. Initial DWSRF loans were charged a 3
     percent administration fee with 1.5 percent due at the time of the first loan draw and 1.5 percent
     due at the closing of the project. Any adjustments due to the final level of funding were made on
     the final fee payment. In 1999, the fee was 2 percent due at the time of the first project draw.
     Proceeds from these administration fees are available to fund administration of the DWSRF and
     other eligible activities. The DWSRF collected $471,821 in administration fees in fiscal year June
     30, 2001.


     Fund Balance

     Fund balances represent the amount available for funding future operations. The reserved fund
     balances represent the amount that has been legally restricted to a specific purpose or that is not
     available for appropriation or expenditure. The DWSRF had the following reserved fund balances
     at year end:

             Reserved for receivables – An account used to indicate receivables that do not represent
             available expendable resources.

             Reserved for restricted accounts – An account used to recognize the remaining fund
             balance that is restricted for use for activities eligible under the SDWA.


     Budget Information

     Under the provisions of the DWSRF’s enabling legislation, funds shall be deposited into the State
     Treasury and may only be drawn from the State Treasury by legislative appropriation.


3.   Cash and cash equivalents

     All monies of the Fund are deposited with the Washington State Treasurer and are considered
     cash and cash equivalents. The Treasurer is responsible for maintaining the cash balances in
     accordance with Washington laws. Details of the investments of the State Treasurer can be
     obtained from the State Treasurer.




                                               5
                  WASHINGTON DRINKING WATER STATE REVOLVING FUND
                           Notes to the Financial Statements
                                     June 30, 2001

3.    Cash and cash equivalents (continued)

     As of June 30, 2001, the Fund investments with the State Treasurer totaled $13,896,708. The
     Fund earned $739,775 from investments with the Treasurer during fiscal 2001. Investments with
     the Treasurer are not categorized because they are not evidenced by securities that exist in
     physical or book entry form.
                                                                                        Market
                                                                 Cost                    Value
        Not subject to categorization:
             Government investment pool - DWSRF              $13,896,708             $13,896,708
             Government investment pool - Fees                   728,640                  728,640
                                                             $14,625,348             $14,625,348

4.   Loans Receivable

     The DWSRF makes loans to qualified public water systems for projects that meet the eligibility
     requirements of the SDWA. Loans are financed by federal capitalization grants, state match, and
     revolving funds. Effective interest rates on loans vary between zero and 5.0 percent, and are
     generally repaid over 20 years starting one year after the project is completed. Loans receivable
     as of June 30, 2001, are as follows:


                                  Loan                                                                June 30,
                                 Amount       July1, 2000                                               2001
      Category                 Authorized      Balance       Disbursements          Repayments        Balance
     Funding completed         $ 4,920,307   $ 3,303,030        $ 1,367,951          $ 70,414        $ 4,500,567
     Funding in progress        56,862,409      7,498,278         13,044,808            311,933       20,231,153
       Totals                  $61,782,716   $10,801,308        $ 14,412,759         $ 482,347       $24,731,720


     Loan disbursements were comprised of $10,596,447 in federally reimbursable funds, less
     $24,347 recorded as other receivables, and $3,840,659 provided from State match.

     Loans mature at various intervals through October, 2020. The scheduled principal and interest
     payments on completely disbursed loans maturing in subsequent years are as follows:

              Year ending June 30:                      Principal        Interest         Total

                       2002                           $ 246,167        $ 173,262        $ 419,429
                       2003                             256,146          187,766          443,912
                       2004                             256,146          176,616          432,762
                       2005                             256,146          165,466          421,612
                       2006                             256,146          154,316          410,462
                       Thereafter                     3,229,815        1,010,422        4,240,237

                       Total                         $ 4,500,566      $ 1,867,848      $ 6,368,414


5.   Fund Balance

     The DWSRF is capitalized by EPA grants authorized by SDWA and matching funds from
     Washington. All funds drawn from EPA and all state match deposits from Washington are
     recorded as revenues. As of June 30, 2001, EPA had awarded capitalization grants of
     $97,800,454 to Washington, of which $25,356,946 had been drawn for reimbursement of loan
     disbursements and set-aside expenses. An additional $6,741,187 was due from EPA.
     Washington had provided matching funds of $17,649,000. The following summarizes the federal
     capitalization grants awarded, amounts drawn on each grant as of June 30, 2001, and balances
     available:
                                              6
                 WASHINGTON DRINKING WATER STATE REVOLVING FUND
                          Notes to the Financial Statements
                                    June 30, 2001

5.   Fund Balance (continued)


     Grants                                                                             Total
     As of June 30, 2000                                       $70,406,100
     Awards July 1, 2000 through June 30, 2001                 $27,394,354          $ 97,800,454


     Cash Draws
     As of June 30, 2000                                       $12,188,978
     Draws July 1, 2000 through June 30, 2001                  $13,167,968         ($ 25,356,946)

     Total Available as of June 30, 2001                                            $ 72,443,508


     As of June 30, 2001, Washington matching contributions were:

                                      June 30, 2000             FY 2001             June 30, 2001
                                         Balance               Contribution            Balance

     State of Washington              $17,649,000                    $0              $17,649,000

     Amount Used on Loans                                                             ( 6,781,491)

     Amount Available                                                                $10,867,509


     The DWSRF Fund Balance determined on a regulatory basis as of June 30, 2001 consisted of
     the following:

     EPA capital contributions                        $18,504,106
     State of Washington capital contributions         17,649,000
     Retained Fund Earnings                             3,430,079
     Total Fund Balance                               $39,583,185


6.   Contingencies and Subsequent Events

     Contingencies

     The DWSRF is exposed to various risks of loss related to torts; thefts of, damage to, or
     destruction of assets; errors or omissions; injuries to state employees while performing Fund
     business; or acts of God. Washington is self-insured against certain property and liability claims.
     There have not been any claims against the DWSRF since its inception.

     Subsequent Events

     Subsequent to year end, EPA awarded Washington the remainder of its 2001 capitalization grant
     for $6,160,320.00. Washington’s matching share for this grant is $1,232,064.




                                                 7
     Independent Auditor’s Report on the
Washington Drinking Water State Revolving Fund
    Internal Control Structure Based on an
       Audit of the Financial Statements
         Performed in Accordance with
        Government Auditing Standards
                    UNITED    STATES     ENVIRONMENTAL PROTECTION               AGENCY
                                           WASHINGTON, D.C.

                                                                                           OFFICE OF
                                                                                       INSPECTOR GENERAL




Ms. Peggy Johnson, Deputy Director
Headquarters Operation
Division of Drinking Water
Washington Department of Health


We have audited the financial statements of the Washington Drinking Water State Revolving Fund (the
Fund) as of and for the year ended June 30, 2001, and have issued our report thereon dated July 15,
2002

We conducted our audit in accordance with generally accepted auditing standards and Government
Auditing Standards issued by the Comptroller General of the United States. Those standards require that
we plan and perform the audit to obtain reasonable assurance about whether the financial statements are
free of material misstatement.

The management of the Fund is responsible for establishing and maintaining an internal control structure.
In fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies and procedures. The objectives of an
internal control structure are to provide management with reasonable, but not absolute, assurance that
assets are safeguarded against loss from unauthorized use or disposition and that transactions are
executed in accordance with management’s authorization and recorded properly to permit the preparation
of financial statements in accordance with generally accepted accounting principles. Because of inherent
limitations in any internal control structure, errors or irregularities may nevertheless occur and not be
detected. Also, projection of any evaluation of the structure to future periods is subject to the risk that
procedures may become inadequate because of changes in conditions or that the effectiveness of the
design and operation of policies and procedures may deteriorate.

In planning and performing our audit of the financial statements of the Fund for the year ended June 30,
2001, we obtained an understanding of the internal control structure. With respect to the internal control
structure, we obtained an understanding of the design of relevant policies and procedures and whether
they have been placed in operation, and we assessed control risk in order to determine our auditing
procedures for the purpose of expressing our opinion on the financial statements and not to provide an
opinion on the internal control structure. Accordingly, we do not express such an opinion.

Our consideration of the internal control structure would not necessarily disclose all matters in the internal
control structure that might be material weaknesses under standards established by the American
Institute of Certified Public Accountants. A material weakness is a condition in which the design or
operation of one or more of the specific internal control elements does not reduce to a relatively low level
the risk that errors and irregularities in amounts that would be material in relation to the financial
statements being audited may occur and not be detected within a timely period by employees in the
normal course of performing their assigned functions. We noted no matters involving the internal control
structure and its operations that we consider to be material weaknesses as defined above.

This report is intended for the information of management of the Fund and the U.S. Environmental
Protection Agency. However, this report is a matter of public record and distribution is not limited.




Office of Inspector General
Washington, D.C.
July 15, 2002

                                                      9
             Independent Auditor’s Report
  on Compliance with Requirements Applicable to the
Washington Drinking Water State Revolving Fund Program
                  in Accordance with
           Government Auditing Standards
                    UNITED    STATES     ENVIRONMENTAL PROTECTION               AGENCY
                                           WASHINGTON, D.C.

                                                                                            OFFICE OF
                                                                                       INSPECTOR GENERAL




Ms. Peggy Johnson, Deputy Director
Headquarters Operation
Division of Drinking Water
Washington Department of Health

We have audited the financial statements of the Washington Drinking Water State Revolving Fund (the
Fund) as of and for the year ended June 30, 2001, and have issued our report thereon dated July 15,
2002.

We have also audited the Fund’s compliance with specific program requirements governing allowability
for specific activities, allowable types of assistance, state matching, period of availability of funds and
binding commitments, cash management, program income, and subrecipient monitoring that are
applicable to the Fund for the year ended June 30, 2001. The management of the Fund is responsible for
the Fund’s compliance with those requirements. Our responsibility is to express an opinion on those
requirements based on our audit.

We conducted our audit of compliance in accordance with generally accepted auditing standards,
Government Auditing Standards, issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance about whether
material noncompliance with the requirements referred to above occurred. An audit includes examining,
on a test basis, evidence about the Fund’s compliance with those requirements. We believe that our
audit provides a reasonable basis for our opinion.

In our opinion, the Fund complied, in all material respects, with the specific program requirements that are
applicable to the Fund for the year ended June 30, 2001.

This report is intended for the information of management of the Fund and the U.S. Environmental
Protection Agency. However, this report is a matter of public record and its distribution is not limited.




Office of Inspector General
Washington, D.C.
July 15, 2002




                                                     11
Supplemental Information
                                                State of Washington
                                        Drinking Water State Revolving Fund
                                             Schedule of Expenditures
                                                   June 30, 2001




                                              State
                                            Program           Technical         Local
                         Admistrative      Management         Assistance      Assistance        Total

Salaries and benefits    $   215,975       $   771,923        $   176,080     $   494,540   $    1,658,518
Equipment                          -                                    -          71,114           71,114
Contracts                    395,176           270,862             61,496         395,746        1,123,280
Travel                         5,749            17,359              5,740          16,125           44,973
Other operating costs        117,536           325,281            235,658         920,562        1,599,037

Subtotal                 $   734,436       $ 1,385,425        $   478,973     $ 1,898,086   $    4,496,921

Expenditures for loans                                                                          10,596,447

Total Expenditures                                                                          $   15,093,368




                                                         13
                                            Report Distribution

EPA, Region 10:

         Regional Administrator
         Director, Water Division
         State Revolving Fund Coordinator
         SRF Financial Analyst
         Audit Followup Coordinator

EPA, Headquarters:

         Director, Grants Administration
         Agency Followup Coordinator
         Associate Administrator for Congressional
           and Legislative Affairs
         Associate Administrator for Communication, Education,
           And Public Affairs
         State Revolving Fund Audit Manager
         State Revolving Fund Branch, Office of Wastewater Management

Other:

         State of Washington, Department of Health
